1301 Pennsylvania Avenue NW
Washington, D.C. 20004
United States

Paul D. Clement
To Call Writer Directly:
+1 202 389 5013
paul.clement@kirkland.com

Facsimile:
+1 202 389 5200

+1 202 389 5000
www.kirkland.com

June 3, 2020
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

PennEast Pipeline Company, LLC v. New Jersey, et al., No. 19-1039

Dear Mr. Harris:
On behalf of petitioner, I write to waive the 14-day waiting period under rule 15.5 and
respectfully request that this petition be set for distribution on June 9, 2020. The Court called for
a response from respondents on April 13, 2020, and respondents have now filed a brief in
opposition. Petitioner anticipates promptly filing a reply brief explaining why the Court should
grant review, but in the event the Court does not receive the reply brief by June 9, petitioner
requests that the petition be distributed without it.

Sincerely,

Paul D. Clement

cc:

Beijing

Boston

All counsel of record

Chicago

Dallas

Hong Kong

Houston

London

Los Angeles

Munich

New York

Palo Alto

Paris

San Francisco

Shanghai

